       ACCOUNTING ENTRIES MADE IN COMPILING THE FY 2000
        AIR FORCE GENERAL FUNDS FINANCIAL STATEMENTS


Report No. D-2001-162                             July 26, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CRS                   Chief Financial Officers Reporting System
DDRS                  Defense Departmental Reporting System
DFAS                  Defense Finance and Accounting Service
SOF                   Status of Funds
                      Office of the Inspector General, DoD
Report No. D-2001-162                                                    July 26, 2001
  (Project No. D2001FD-0014)

            Accounting Entries Made in Compiling the FY 2000
              Air Force General Funds Financial Statements

                               Executive Summary

Introduction. We performed this audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD to provide audited financial statements to the Office of Management and Budget.
This audit is one in a series of audits of accounting entries made by the Defense
Finance and Accounting Service in preparing the FY 2000 financial statements for
DoD. The audit supported the audits of the FY 2000 financial statements for DoD and
the Air Force General Funds. The Inspector General, DoD, and the Air Force Audit
Agency disclaimed an opinion on those financial statements. The Defense Finance and
Accounting Service Denver made $406 billion in accounting entries in three automated
systems in compiling the FY 2000 Air Force General Funds Financial Statements. The
FY 2000 Air Force General Funds Financial Statements reported total assets of
$86.2 billion and total net cost of operations of $80.0 billion.

Objective. The original objective of the audit was to determine whether the Defense
Finance and Accounting Service Denver consistently and accurately compiled financial
data from field activities and other sources in preparing the FY 2000 Air Force General
Funds Financial Statements. However, the objective was revised to determine whether
the accounting entries made by the Defense Finance and Accounting Service Denver
were adequately supported and complied with generally accepted accounting principles.
We also reviewed applicable internal controls and compliance with laws and
regulations, including the management control program.

Results. Additional improvements in the accounting entries made in compiling the
FY 2000 Air Force General Funds Financial Statements are required to adequately
support and comply with generally accepted accounting principles. The Defense
Finance Accounting Service Denver made accounting entries for $406.0 billion in
preparing the FY 2000 Air Force General Funds Financial Statements. Of that
$406.0 billion, $317.4 billion were unsupported and $3.0 billion were improper.
Furthermore, $304.0 billion of the accounting entries were not properly approved
before being entered into the automated systems. The Defense Finance and Accounting
Service Denver made progress in significantly reducing the dollar volume of accounting
entries made in two automated systems in preparing those financial statements
However, the problem with unsupported and improper accounting entries remains and
affects the accuracy and reliability of the Air Force General Funds Financial
Statements.
For details of the audit results, see the Finding section of the report. See Appendix A
for details on the review of the management control program, as it relates to controls
over accounting entries, and Appendix B for a comparison to prior audit results.

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service Denver, adequately support and obtain management approval
for the accounting entries made in compiling the Air Force General Funds Financial
Statements as required by DoD regulation and internal operating guidance.

Management Comments. The Defense Finance and Accounting Service concurred in
principle with both recommendations. However, management nonconcurred that
additional support was required for certain original entries made in one funds control
system. Other unsupported and improper entries were made to improve the accuracy of
the financial statements because of deficiencies in feeder accounting systems. A new
system modification will remedy confusion over unsupported entries. Entries made
prior to management approval in one system did not affect the accuracy of the financial
statements or related internal controls. Other stringent controls are followed to ensure
that necessary approvals are obtained prior to the preparation and release of the
financial statements. See the Finding section of the report for a discussion of the
management comments and the Management Comments section for the complete text.

Audit Response. Management comments are nonresponsive because they are
incomplete or did not identify the corrective actions taken or planned. We disagree
with management’s contention that internal journal voucher guidance does not apply to
original accounting entries. In addition, the system modification will not eliminate the
requirement that future accounting entries be adequately supported. We therefore
revised Recommendation 1. to provide increased clarity. Unapproved accounting
entries undermine the reliability of the financial statements and related internal controls.
We also disagree with management’s contention that it is acceptable for accounting
entries to be recorded in an accounting system without prior approval by management.
We request that the Director, Defense Finance and Accounting Service, provide
comments on the final report by August 27, 2001.




                                             ii
Table of Contents

Executive Summary                                             i

Introduction
     Background                                               1
     Objective                                                2

Finding
     Accounting Entries                                       3

Appendixes
     A. Audit Process
          Scope                                              15
          Methodology                                        16
          Management Control Program Review                  16
          Prior Coverage                                     17
     B. Comparison of FYs 1999 and 2000 Accounting Entries   18
     C. Report Distribution                                  21

Management Comments
     Defense Finance and Accounting Service                  23
Background
    Audit Requirement. Public Law 101-576, the “Chief Financial Officers Act of
    1990,” November 15, 1990, as amended by the Public Law 103-356, the
    “Federal Financial Management Act of 1994,” October 13, 1994, requires DoD
    to submit to the Office of Management and Budget annual financial statements
    that have been audited by the Inspector General, DoD. This audit is one in a
    series of audits of department-level accounting entries made by the Defense
    Finance and Accounting Service (DFAS) in preparing the FY 2000 financial
    statements for DoD reporting entities. The audit supported the audits of the
    FY 2000 financial statements for the DoD and the Air Force General Funds.
    The Inspector General, DoD, and the Air Force Audit Agency disclaimed an
    opinion on those financial statements.

    Department-Level Accounting. DFAS Denver performed the department-level
    accounting for the Department of the Air Force and compiled the FY 2000
    Air Force General Funds Financial Statements from data submitted by the
    Air Force and other DoD organizations. The FY 2000 Air Force General
    Funds Financial Statements reported total assets of $86.2 billion and total net
    cost of operations of $80.0 billion. Those financial statements are compiled by
    DFAS Denver from budgetary and financial data obtained from several
    department-level automated information systems. This audit focused on the
    accounting entries made by DFAS Denver in three of those systems.

            Status of Funds. The Status of Funds (SOF) is part of the Departmental
    On-line Accounting and Reporting System. DFAS Denver uses SOF to prepare
    Air Force status of funds reports. The SOF receives and consolidates budget
    execution data, disbursement and collection data, funding amounts,
    U.S. Treasury expenditures by other Services, and miscellaneous inputs. The
    Inspector General, DoD, and the Air Force Audit Agency jointly reviewed the
    SOF accounting entries made during FY 2000. The Inspector General, DoD,
    examined accounting entries identified as constant adjustments, which are used
    to enter budgetary data that remain in the SOF and are not overwritten or
    removed by future accounting entries. The Air Force Audit Agency will
    separately report on its audit of other accounting entries made in SOF and the
    Command On-line Accounting and Reporting System.

             Chief Financial Officers Reporting System (CRS). The CRS provides
    DFAS Denver with the capability to produce the financial statements for the
    Air Force General Funds. The CRS is initially populated with budgetary data
    extracted from the SOF. The data are converted from the SOF budget identifier
    codes to U.S. Standard General Ledger accounts through numerous automated
    posting rules. Accounting employees at DFAS Denver manually enter into CRS
    additional data obtained from property management systems, logistics systems,
    and reports from other DFAS sites, Air Force financial management and legal
    activities, and other Government entities. Outputs from CRS were the initial
    inputs made to the DFAS Arlington Defense Departmental Reporting System
    (DDRS) for the final preparation of the FY 2000 Air Force General Funds
    Financial Statements.


                                       1
                    DDRS. DFAS Arlington developed DDRS for use in preparing the
            FY 2000 financial statements for Air Force General Funds and other DoD
            reporting entities. Outputs from CRS were used to populate DDRS. DFAS
            Denver then entered additional accounting entries into DDRS in compiling the
            Air Force General Funds Financial Statements. In addition to reviewing CRS
            accounting entries, the FY 2000 review included selected accounting entries
            made to SOF and DDRS.

            Department-Level Accounting Entries. In compiling the FY 2000 Air Force
            General Funds Financial Statements, DFAS Denver processed 1,617 accounting
            entries for 406.0 billion,* which represented:
                     • 921 SOF constant adjustments for $294.6 billion (absolute value),

                     • 583 CRS accounting entries for $78.9 billion, and

                     • 113 DDRS entries for $32.5 billion.

Objective
            The original objective of the audit was to determine whether DFAS Denver
            consistently and accurately compiled financial data from field activities and
            other sources in preparing the FY 2000 Air Force General Funds Financial
            Statements. However, the objective was revised to determine whether the
            accounting entries made by the DFAS Denver in preparing those FY 2000
            financial statements were adequately supported and complied with generally
            accepted accounting principles. Specifically, we examined the constant
            adjustments made by DFAS Denver in the SOF System and all accounting
            entries made in CRS and DDRS. We also reviewed applicable internal controls
            and compliance with laws and regulations, including the management control
            program. See Appendix A for a discussion of the scope and methodology, the
            review of the management control program, and prior coverage. See
            Appendix B for a discussion comparing the audit results for FYs 1999 and 2000.




________________________
*
    The dollar values of accounting entries made in double-entry accounting systems are discussed in this
    report only in terms of their debit values. However, the SOF System is a single-entry system, which
    only records one side (the debit or credit) of an accounting entry. Therefore, to avoid understating the
    volume of such transactions, this report discusses SOF constant adjustments in terms of their absolute
    dollar values.



                                                       2
           Accounting Entries
           Additional improvements in the accounting entries made in compiling the
           FY 2000 Air Force General Funds Financial Statements are required to
           adequately support and comply with generally accepted accounting
           principles. DFAS Denver made accounting entries for $406.0 billion in
           three automated systems in preparing the FY 2000 Air Force General
           Funds Financial Statements. Of that $406.0 billion, $317.4 billion were
           unsupported, and $3.0 billion were improper. Furthermore, DFAS
           Denver did not obtain approval for $304.0 billion of the accounting
           entries made in FY 2000 prior to recording those entries in the
           automated systems. Those conditions occurred for several reasons.

                  • DoD and DFAS guidance on journal vouchers was not followed
                    in making SOF constant adjustments and CRS accounting
                    entries.

                  • The DoD Financial Management Regulation and DFAS
                     Arlington directed forced entries and other accounting entries
                     that were improper.

                  • Responsible managers ignored or were unaware of the
                     requirement for obtaining approval for accounting entries prior
                     to their entry into the automated systems.

           DFAS Denver made progress in reducing by 90 percent the dollar
           volume of accounting entries made in CRS and DDRS compared to
           FY 1999. However, the problem with unsupported and improper
           accounting entries remains and affects the accuracy and reliability of the
           Air Force General Funds Financial Statements.

Guidance on Accounting Entries
    DoD Financial Management Regulation. DoD Regulation 7000.14-R, “DoD
    Financial Management Regulation,” volume 6A, “Reporting Policy and
    Procedures,” January 2001 (as revised), provides guidance on the roles and
    responsibilities of DFAS and its customers regarding financial reports and the
    treatment of transactions from which the financial data in the reports are
    derived. The guidance requires DFAS to adequately support and justify in
    writing any adjustments to official accounting records and states that:
              The documentation shall include the rationale and justification for the
              adjustment, the detail numbers and dollar amounts of errors or
              conditions that are related to the transactions or records that are
              proposed for adjustment, the date of the adjustment, and the name and
              position of the individual approving the adjustment.               The
              documentation also shall be sufficient to provide an audit trail to the
              detail transaction(s) being adjusted or corrected.




                                            3
    DFAS Guidance. DFAS Denver uses journal vouchers to document the nature
    of and approval for accounting entries made by accounting employees to data in
    the CRS and DDRS. Automated controls in both systems prevent unapproved
    accounting entries from affecting the general ledger amounts included on the
    financial statements. Accounting entries should be posted to the general ledger
    and affect the general ledger only after appropriate approval has been obtained.

    On October 28, 1999, the Director for Accounting, DFAS Arlington, issued a
    memorandum, “Journal Voucher Guidance,” establishing specific guidance for
    documenting and approving accounting entries. On August 2, 2000, the
    Director for Accounting, DFAS Arlington, updated the guidance, which
    specifies documentation requirements for correcting and source journal voucher
    entries. The memorandum also established thresholds for approval of journal
    vouchers, which are presented in Table 3 in the finding.

    The DFAS guidance did not provide any performance standards or an action
    plan with metrics for measuring progress in implementing the journal voucher
    guidance. In addition, the DFAS guidance inappropriately allowed journal
    vouchers to be submitted for and approved 5 workdays before all supporting
    documentation had been identified and made available to the approving official.
    No journal voucher should be submitted for approval until all supporting
    documentation is made available to the approving official. Appropriate changes
    to the DFAS guidance were recommended in Inspector General, DoD, report
    number D-2001-107, “Accounting Entries Made by the Defense Finance and
    Accounting Service Omaha to U.S. Transportation Command Data Reported in
    DoD Agency-Wide Financial Statements,” May 2, 2001.

    Reporting Categories. Based on the DoD regulation and implementing DFAS
    guidance, we determined whether the accounting entries were supported,
    unsupported, or improper. Details are provided in Appendix B on the reporting
    categories.

Comparison to FY 1999
    Unsupported and improper accounting entries made by DFAS Denver in
    compiling the FY 2000 Air Force General Funds Financial Statements continue
    to represent material control weaknesses. However, DFAS Denver made
    progress in reducing the number of accounting entries made in CRS and DDRS
    during FY 2000. For example, the $111.4 billion in accounting entries made in
    CRS and DDRS were 90 percent less than the $1.2 trillion made in FY 1999.
    On the other hand, unsupported entries increased from $66.3 billion in FY 1999
    to $317.4 billion in FY 2000. Also, the $3.0 billion in improper entries made
    in CRS and DDRS during FY 2000 represented a significant increase from the
    $0.3 billion made in FY 1999. Details on the comparison of FYs 1999 and
    2000 audit results and explanations for the changes are provided in Appendix B.




                                        4
    Despite the improvements made by DFAS Denver in some areas, Table 1 shows
    that additional corrective actions are required to improve the documentation of
    accounting entries and to comply with generally accepted accounting principles.


                    Table 1. FY 2000 DFAS Denver Accounting Entries by
                              Automated Information Systems
                                     (dollars in billions)

                                                    Automated Information Systems

                                            CRS and
     Reporting Category                      DDRS                   SOF*              Total
     Supported Dollar Amounts               $ 85.6                $ 0.0              $ 85.6
      Quantity of Entries                       507                     0                507
     Unsupported                            $ 22.8               $294.6               $317.4
      Quantity of Entries                       146                  921               1,067
     Improper                                   3.0                  0.0                  3.0
      Quantity of Entries                           43                  0                 43
     Total Dollar Amounts                   $111.4               $294.6               $406.0
      Total Entries                             696                  921               1,617
     *
         For comparison purposes, the SOF constant adjustments examined in FY 2000 are
         shown separately because the FY 1999 audit did not examine those accounting entries.



Unsupported Entries
    As detailed in Table 2, DFAS Denver made 1,067 accounting entries for
    $317.4 billion, which were not adequately supported. Accounting entries were
    considered unsupported if the documentation for the entry was inadequate, the
    entries were made to force accounting data to match for elimination purposes, or
    the entries were made to force amounts into the accounting system. Entries
    were forced if they were made to make amounts agree or to distribute amounts
    based on an arbitrary process.

    Inadequate Documentation. As detailed below and in Table 2, inadequate
    support was provided for 982 accounting entries for $300.0 billion made in the
    SOF and CRS.

           SOF. Accounting employees at DFAS Denver manually enter selected
    budgetary data to SOF. Those entries were made using various source codes,
    which identify the source of the transaction. Source code “C” is used to enter
    budgetary data that constantly remain in SOF and are not overwritten or
    removed by future accounting entries. A review of those SOF constant


                                                5
                     Table 2. Unsupported Accounting Entries
                                (dollars in billions)

                                                Automated Information Systems
        Reason Unsupported                 SOF        CRS         DDRS            Total
Inadequate documentation
Dollar Amounts                           $294.6       $5.4         $ 0.0         $300.0
     Quantity of Entries                     921         61             0              982
Forced elimination entries               $ 0.0        $1.5         $15.9          $ 7.4
Dollar Amounts
      Quantity of Entries                       0        39            39              78
Other forced entries                     $ 0.0        $0.0*        $ 0.0*         $    .0*
Dollar Amounts
      Quantity of Entries                       0         6             1                7
Total Dollar Amounts                     $294.6       $6.9         $15.9          $317.4
  Total Entries                             921        106            40           1,067
 *
     The dollar values discussed in the report are $155,000 for CRS and $109,000 for
     DDRS, or a total of $264,000.


adjustments disclosed that none were supported by journal vouchers complete
with supporting documentation and approved in accordance with DFAS
Arlington guidance. DFAS Denver made 921 constant adjustment accounting
entries for $294.6 billion without journal vouchers, supporting documentation,
and without supervisory approval. This occurred because DFAS Denver
management did not believe the DFAS Arlington guidance applied to these
accounting entries.

A limited review of each type of constant adjustments disclosed that
documentation was subsequently found that supported each constant adjustment,
though not consolidated and documented in the same manner as CRS and DDRS
accounting entries. Preparation of fully documented and approved accounting
entries in a timely manner is necessary to ensure that constant adjustments are
valid and fully support the financial statements.

       CRS. A total of 61 accounting entries for $5.4 billion were prepared
with no supporting documentation to input FY 2000 beginning balances for the
Statement of Budgetary Resources (FY 1999 ending balances). DFAS Denver
accounting employees provided requirements to the CRS contract programmer,
who coded the requirements into the system. The system executed the
programming instructions and printed the journal vouchers. However, the
programming did not always produce the correct results, requiring additional
research and programming. The accounting entries did not provide detailed


                                            6
documentation that demonstrated that the desired results were achieved.
Discussions with DFAS Denver accounting employees demonstrated that the
process was not documented in accordance with DFAS Arlington journal
voucher guidance, which severely limited their ability to discuss the process.

All accounting entries must be subjected to the DFAS Arlington accounting
entry guidance to demonstrate that the entry process produced the correct
amounts.

Forced Elimination Entries. Those elimination entries were made to comply
with DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
volume 6B, “Form and Content of DoD Audited Financial Statements,”
chapter 13, “FY 2000 Adjustments, Eliminations, and Other Special
Intragovernmental Reconciliation Procedures,” December 2000. The
DoD Regulation 7000.14-R states that for FY 2000 reporting, elimination
entries will be based on the information provided by the seller/service provider
and adjustments will be made based on the seller/service provider information.
           The accounting centers then compare these balances to summary
           buyer-side data at the entity code trial balance level. Based on these
           comparisons, the amount of unrecorded intragovernmental
           transactions on the buyer-side can be calculated and the applicable
           accrual entries recorded.

The guidance does emphasize that the DoD accounting centers should ensure
that the seller-side information from trading partners is correct. However,
because of time constraints, the DoD accounting center is not required to
perform a detailed reconciliation to determine why the seller-side information is
correct and the buyer-side information is incorrect. For example, if the
intragovernmental trading partners of the Air Force General Funds notify the
Air Force General Funds that they sold it $10,000 worth of goods and services,
then the Air Force General Funds will have to show $10,000 in the appropriate
intragovernmental expense account. If the Air Force General Funds does not
have $10,000 in the account, then it must accrue the difference until it can build
up to $10,000 in the account. DFAS Denver researches the difference, but if
the trading partner determines its information is correct, then DFAS Denver
accrues the difference so that the accounting records agree with the trading
partners. Because of time constraints involved in the financial statement
preparation process, a detailed reconciliation is not performed to the sales ticket
or accounts receivable detail level. This type of accounting entry is unsupported
because no actual accounting event took place to support the adjustment, and a
reconciliation was not performed where sales or accounts receivable documents
were compared to accounting records. Additionally, the following guidance is
provided to DoD accounting centers on eliminating abnormal balances in
intra-DoD trading partner data. Specifically, it states the following.
           This review shall identify any abnormal balances such as negative
           revenue.    The DoD accounting centers shall work with their
           customers to revolve the abnormal balances and eliminate them before
           exchanging intra-DoD trading partner data.




                                        7
Those abnormal balances are caused by deficiencies in DoD and other Federal
accounting systems. As noted in DoD Regulation 7000.14-R, DoD systems
were designed and implemented before the requirement existed to eliminate
intragovernmental transactions. Thus, the adjustments and reconciliation
process followed in preparing DoD financial statements may cause general
ledger accounts to have abnormal balances compared to those normally expected
in the application of generally accepted accounting principles.

DoD Regulation 7000.14-R clearly requires DoD accounting centers to work
with their customers in resolving abnormal balances. However, the DoD
Regulation 7000.14-R does not clearly state that unresolved abnormal balances
should be reported.

As detailed below and in Table 2, DFAS Denver prepared 78 accounting entries
for $17.4 billion in the CRS and DDRS that eliminated unresolved abnormal
balances or forced data to match for elimination purposes.

        CRS. A total of 39 accounting entries for $1.5 billion were made to
reallocate Government accounts receivable, revenue, and unearned revenue
among Federal agency sales codes for purposes of eliminating the transactions in
the Government-wide financial statements. Accounting data between the seller
and buyer of goods and services within the same reporting entity must be
eliminated to accurately report financial data for the entity, to include the
Government-wide financial statements. Therefore, goods and services provided
by the Air Force General Funds to the Department of Labor and other non-DoD
entities were provided to the U.S. Treasury for elimination on the Government-
wide financial statements. However, the Air Force General Funds seller data
were not maintained at the detail level required by the U.S. Treasury. To
provide the detail necessary, an arbitrary reallocation process was programmed
into the CRS. This process allocated the dollar amounts based on distributed
allocations within the sales code grouping. Where no other sales codes were
reported, the dollar amount was allocated to a specific sales code. Additionally,
as part of this process, the CRS was programmed to identify and remove any
abnormal balances. Although we discussed this with DFAS Denver
management, we could not readily identify the dollar amount of the abnormal
balances removed. Entries that eliminated abnormal balances were made in
response to directions from DFAS Arlington. That is, DFAS Arlington
interpreted the DoD guidance on abnormal balances as requiring that such
arbitrary entries be made to eliminate unresolved abnormal balances before
exchanging trading partner data.

        DDRS. An additional 39 accounting entries for $15.9 billion were made
in DDRS to adjust accounting data based on information provided by DoD
entities with which the Air Force General Funds conducts business. For
example, the Air Force General Funds may purchase goods or services from a
Navy entity. The Navy entity, as the selling trading partner, provides
accounting information to the Air Force General Funds. Using DDRS, DFAS
Denver accounting employees match the data to respective data in the




                                    8
Air Force General Funds accounting records. If the data do not match, an
adjustment is made to make the data agree. The following examples depict the
adjustments made.

       • Accounting data were accrued to match the selling trading partner
         data. For example, accounts payable was accrued to match a selling
         trading partner’s accounts receivable. A total of 13 accruals were
         made for $5.5 billion.

       • Accounting data were reclassified to match selling trading partner
         data. For example, accounts payable was reclassified from a
         Government entity to a public entity to provide a sufficient amount to
         match selling trading partner data. A total of 22 reclassifications were
         made for $9.9 billion.

       • Accounting accruals previously made to match selling trading partner
         data were partially reversed based on revised data. Four reversals
         were made for $0.5 billion.

To comply with generally accepted accounting principles, DFAS Denver should
not arbitrarily eliminate unresolved abnormal balances. The DoD guidance
should be revised to clearly state that unresolved abnormal balances must be
reported in accordance with generally accepted accounting principles. No
recommendations are made in this report because appropriate corrective actions
are recommended in the following reports:

       • Inspector General, DoD, Report No. D-2001-042, “Accounting and
         Disclosing Intragovernmental Transactions on the DoD Agency-Wide
         Financial Statements,” January 31, 2001, and

       • Draft report on Inspector General, DoD, Project
         No. D2001FD-0014.002, “Accounting Entries Made in Compiling the
         FY 2000 Financial Statements for the Working Capital Funds of the
         Air Force and Other Defense Organizations,” to be issued July 2001.

Other Forced Entries. As detailed below and in Table 2, seven CRS and
DDRS accounting entries for $264,000 were unsupported because they were
forced entries.

        CRS. Six accounting entries for $155,000 were made programmatically
by the CRS to eliminate abnormal balances. The abnormal balances were as a
result of moving financial data from a sales code that was invalid or missing to a
valid sales code prescribed by DFAS Arlington in July 2000. Sales codes were
used to identify the entity selling goods or services. Because the abnormal
balances were identified and eliminated programmatically, we could not
determine exactly what caused the balances to be abnormal.

        DDRS. One DDRS accounting entry for $109,000 was made to balance
the net cost on the Statement of Financing to the net cost on the Statement of
Net Change.


                                    9
Improper Entries
    Accounting entries were considered improper if they were illogical or did not
    comply with generally accepted accounting principles. DFAS Denver
    accounting employees prepared 43 accounting entries in the CRS for $3.0 billion
    that were illogical.

    Government and Non-Government Entities. A total of 28 accounting entries
    were programmatically made to distribute undistributed disbursements between
    Government and non-Government entities. Undistributed disbursements were
    those made for an Air Force General Funds entity, which have not been
    included in accountable records and reported to DFAS. As a result, the
    undistributed disbursements do not have the information necessary to determine
    whether they were to a Government or a non-Government entity for elimination
    purposes. Therefore, the CRS, in accordance with DFAS Arlington guidance,
    was programmed to make the distribution. Specifically, the program computes
    the distribution based on the percentage of Government versus non-Government
    disbursements identified in the accounting records. This percentage is
    programmatically applied to the undistributed disbursements to identify the
    amount to be posted to Government and non-Government entities. This process
    assumes that the undistributed disbursements have the same ratio of Government
    and non-Government disbursements. This assumption cannot be verified and
    thus the process is not logical and calls in to question whether the correct
    accounting treatment was given to $3.0 billion of disbursements.

    Other Improper Entries. DFAS Denver made another 15 improper entries for
    $65.4 million (difference due to rounding) representing:

           • three entries for $51.5 million made to reverse FY 1999 accounting
             entries, which were verbally directed by DFAS Arlington in FY 1999
             to eliminate abnormal balances on the FY 1999 financial statements,

           • nine entries for $3.2 million made because of invalid sales codes,

           • two accounting entries for $2.5 million made to reclassify abnormal
             balances (negative accounts receivable) reported by field activities,
             and

           • one accounting entry for $8.1 million, which inexplicably used data as
             of June 30, 2000, to adjust the value of equipment with contractors to
             its professed balance as of September 30, 2000.

Supervisory Review
    DFAS Denver did not obtain proper approval for $304.0 billion of the
    accounting entries made in FY 2000 prior to recording those entries in the
    automated systems. Of the $320.4 billion in unsupported and improper
    accounting entries, 921 constant adjustments for $294.6 billion were made in the


                                       10
SOF system without management review and approval, and three entries for
$5.1 billion were recorded in CRS prior to their being approved. Of the three
CRS entries, two valued at $3.1 billion were identified as unsupported because
of inadequate documentation while the remaining entry for $2.0 billion was
determined to be an improper allocation of undistributed disbursements between
Government and non-Government entities. In addition, although supported,
two other CRS entries for $4.3 billion were recorded in CRS prior to their being
approved.

To ensure that accounting entries are valid and fully supported, appropriate
supervisory review should be obtained prior to entering the financial data in the
automated systems used to prepare Air Force General Funds Financial
Statements. The Standards for Internal Control in the Federal Government,
November 1999, established by the U.S. General Accounting Office, stresses
the need to segregate key duties and responsibilities among different people to
reduce the risk of error or fraud. This control should include separating the
responsibilities for authorizing transactions, processing and recording them, and
reviewing the transactions. No one individual should control all key aspects of
a transaction or event. Similar internal control requirements are established by
Office of Management and Budget Circular No. A-123, “Management
Accountability and Control,” June 21, 1995; the “Framework for Federal
Financial Management Systems,” January 1995, issued by the Joint Financial
Management Improvement Program; and the DoD Financial Management
Regulation.

Supervisory reviews were specified for accounting entries based on certain
dollar thresholds established by the Director for Accounting, DFAS Arlington,
as illustrated in Table 3.


                        Table 3. Approval Thresholds

Threshold           Dollar Amount                 Approving Official
    1             Under $100 Million          Team Leader General Funds
    2             $100 – $500 Million         Chief, Office of CFO Procedures
    3             $500 - $1 Billion           Director for Accounting
    4             Over $1 Billion             DFAS Denver Director


Responsible DFAS Denver managers did not believe that management review
and approval of the SOF constant adjustments were required. A lower-level
manager approved the five CRS entries in anticipation of their approval by the
Director, DFAS Denver. The Director, DFAS Denver, subsequently approved
those five and other accounting entries without dating his signature. The
effectiveness of such after-the-fact approvals is questionable when financial
records can be altered without management review and approval. The absence




                                   11
    of required management review and approval of $9.4 billion is a material
    control weakness because management may not have authorized the transactions
    recorded in those systems.

Summary
    Although material control weaknesses remain, compared to FY 1999, DFAS
    Denver made progress in reducing the number of accounting entries made in
    CRS and DDRS in preparing the FY 2000 Air Force General Funds Financial
    Statements. Excluding the unsupported SOF constant adjustments, the primary
    cause for the remaining unsupported or improper accounting entries made by
    DFAS Denver in FY 2000 were uncorrected deficiencies in the automated
    systems it uses to prepare the Air Force General Funds Financial Statements.
    Other administrative documentation problems, such as those identified with the
    $294.6 billion in SOF constant adjustments, should be corrected by following
    existing guidance. DFAS Denver needs to take proactive measures to improve
    the controls over the documentation of and authorization for the accounting
    entries made in the SOF System. DFAS Denver should also verify that
    appropriate documentary controls are in place with other department-level
    systems.

Recommendations, Management Comments, and Audit
   Response
  We recommend that the Director, Defense Finance and Accounting Service
  Denver, in compliance with provisions of DoD Regulation 7000.14-R, “DoD
  Financial Management Regulation,” March 13, 2001, and implementing
  internal guidance, establish procedures to:

        1. Adequately support the FY 2001 and future constant “C”
  adjustments made in the Status of Funds System and other accounting entries
  made in the Chief Financial Officers Reporting System and the Defense
  Department Reporting System.

  Management Comments. DFAS concurred in principle but did not concur that
  constant “C” adjustments made to Status of Funds were unsupported. Because
  these adjustments are original source entries, DFAS stated that additional support
  was not required and available support did not need to be attached to a journal
  voucher. Regarding the unsupported or improper entries in CRS and DDRS,
  DFAS stated these entries were necessary to increase the accuracy of the
  statements because many of the feeder systems are non-CFO compliant in
  capturing accounting transactions. DFAS stated that implementing the General
  Accounting and Finance System-Rehost will remedy the confusion of unsupported
  adjusting entries.

  Audit Response. The DFAS comments were nonresponsive because they did not
  identify the corrective actions planned or taken and were incomplete. Contrary to
  management comments, SOF constant “C” adjustments consist of both source


                                        12
entries and correcting entries, both of which require journal vouchers under the
DFAS journal voucher guidance issued in August 2000. That guidance states:

      •   Source accounting entries are entries that have not been otherwise
          recorded because of system limitations or timing differences. Such
          entries will normally be summarized amounts for which documentation is
          required, even where finite transaction detail may not be available.

      •   Among other types, correcting entries include journal vouchers prepared
          based on customer requests and through analysis, reasonableness checks,
          or quality control procedure.

Many of the constant “C” adjustments are source entries made at the customer’s
request to record the initial funding while subsequent correcting entries are made at
the customer’s request to record funding changes. Other constant “C” adjustments
were made based on analysis performed by SOF employees. Preparing journal
vouchers for constant “C” adjustment provides a disciplined manner for
documenting the support for the transactions and management’s prior approval of
those adjustments. No such discipline existed for the $294.6 billion in constant
“C” adjustments made in SOF during FY 2000.

As management stated, most of the forced elimination entries and other forced
entries made in CRS and DDRS were caused by accounting system deficiencies in
the feeder systems used. However, this audit report identified accounting entries
classified as inadequately documented. Those inadequately documented entries
resulted from failure to comply with DFAS journal voucher guidance, not
accounting system deficiencies. This report identified $5.4 billion of inadequately
documented CRS entries. Management comments did not address the corrective
actions taken or planned to ensure that all future accounting entries will be
adequately documented. The General Accounting and Finance System-Rehost
(now under development) may eliminate the necessity for making some accounting
entries. However, that new system will not otherwise eliminate the requirement
that the accounting entries made be adequately supported. We request that DFAS
reconsider its position and provide additional comments on this recommendation.

       2. Require that dated approval signatures from authorized managers
be obtained before accounting entries are made in the Status of Funds System
and Chief Financial Officers Reporting System.

Management Comments. DFAS concurred in principle, stating that only 5 of
583 entries were made prior to obtaining supervisory approval, which did not
affect the accuracy of or internal controls over the preparation of the financial
statements. DFAS Denver followed stringent alternative controls to ensure that
necessary approvals were obtained before the draft or final statements were
prepared or made available for management or audit review. DFAS Denver will
again closely monitor the approvals during the FY 2001 financial statement cycle.

Audit Response. The management comments were not responsive because they
were incomplete and did not otherwise propose any corrective actions in response
to the recommendation. DFAS did not identify any corrective actions planned or


                                       13
taken related to the absence of approvals by DFAS managers for the 921 SOF
constant “C” adjustments, valued at $294.6 billion. Contrary to management’s
assertion, the five unapproved entries made in CRS undermine the reliability of the
financial statements and related internal controls. Three of the five CRS were
identified as unsupported or improper. Furthermore, the alternative controls
followed by DFAS Denver in preparing the FY 2000 financial statements were not
sufficient to prevent the five accounting entries, valued at $9.4 billion, from being
made in CRS without the approval of the Director, DFAS Denver. We also
disagree with management’s contention that it is acceptable for accounting entries
to be recorded in an accounting system without prior approval by DFAS managers,
provided such approvals are obtained before the financial statements are prepared
or made available for review. DFAS managers should approve any transaction
before it is recorded in an accounting system. Otherwise, DFAS managers do not
have reasonable assurance on the reliability of financial reports, including financial
statements and budget execution reports. We request that DFAS reconsider its
position and provide additional comments on this recommendation, including
corrective actions planned or taken related to the SOF constant “C” adjustments.




                                       14
Appendix A. Audit Process

Scope
    Work Performed. For the FY 2000 Air Force General Funds Financial
    Statements, we examined the support for source code “C” constant adjustments
    made in SOF and all accounting entries made by DFAS Denver in CRS and
    DDRS.

    Limitation to Audit Scope. The Air Force Audit Agency examined and will
    separately report on its audit of accounting entries (excluding constant
    adjustments) made by DFAS Denver in SOF and the Command-Online
    Accounting and Reporting System. DFAS Denver may have made accounting
    entries in the Merged Accountability and Fund Reporting System or other
    department-level automated information systems that were not included in the
    scope of this audit.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goal, and performance measures.

           • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
              future by pursuing a focused modernization effort that maintains
              U.S. qualitative superiority in key warfighting capabilities.
              Transform the force by exploiting the Revolution in Military Affairs,
              and reengineer the Department to achieve a 21st century
              infrastructure. (01-DoD-02)

           • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
              financial and information management (01-DoD-2.5).

           • FY 2001 Performance Measure 2.5.1: Reduce the number of
              noncompliant accounting and finance systems (01-DoD-2.5.1.).

           • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                         −DoD-2.5.2.).
              on financial statements (01−

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective.

           • Financial Management Area. Objective: Strengthen internal
             controls. Goal: Improve Compliance with the Federal Financial
             Managers’ Financial Integrity Act. (FM 5.3)



                                      15
  General Accounting Office High-Risk Area. The General Accounting Office has
  identified several high-risk areas in the DoD. This report provides coverage of the
  Defense Financial Management high-risk area.

Methodology
     Use of Computer-Processed Data. We relied on computer-processed data
     from the SOF, CRS, and DDRS, which process accounting data for the
     Air Force General Funds. We did not evaluate the general and application
     controls of these systems because the process for preparing and approving
     accounting entries at the DFAS Denver is primarily a manual process. Not
     evaluating the controls did not affect the results of the audit.

     Audit Type, Dates, and Standards. We performed this financial related audit
     from June 2000 through March 2001 in accordance with auditing standards
     issued by the Comptroller General of the United States, as implemented by the
     Inspector General, DoD. We did our work in accordance with generally
     accepted Government auditing standards, except that we were unable to obtain
     an opinion on our system of quality control. The most recent external quality
     control review was withdrawn on March 15, 2001, and we will undergo a new
     review. We included tests of management controls considered necessary.

     Contacts During the Audit. We visited or contacted individuals and
     organizations within DoD. Further details are available on request.

Management Control Program Review
     DoD Directive 5010.38, “Management Control (MC) Program,”
     August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
     Program Procedures,” August 28, 1996, require DoD organizations to
     implement a comprehensive system of management controls that provides
     reasonable assurance that programs are operating as intended and to evaluate the
     adequacy of the controls.

     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of DFAS Denver management controls over approval of, proper
     accounting of, and support for accounting adjustments. We also reviewed
     management’s self-evaluation applicable to those controls.

     Adequacy of Management Controls. We identified material management
     control weaknesses as defined in DoD Instruction 5010.40. Management
     controls at DFAS Denver were not adequate to ensure that all accounting
     entries were proper adjustments or adequately supported. We reported similar
     management control weaknesses in Inspector General, DoD, Report
     No. D-2000-143, “Defense Finance and Accounting Service Denver Center’s
     Accounting Entries Used in Compiling the FY 1999 Air Force General Fund
     Financial Statements,” June 9, 2000. The recommendations, if implemented,



                                         16
    will improve the controls over the process for making accounting entries. We
    will provide a copy of the report to the senior official in charge of management
    controls at DFAS Denver.

    Adequacy of Management’s Self-Evaluation. DFAS Denver identified
    controls over the preparation of financial statements as an assessable unit but did
    not identify controls over accounting entries as an assessable unit. DFAS
    Denver evaluated the preparation of financial statements and controls over
    accounting entries. In its evaluations, DFAS Denver did not identify material
    weaknesses related to controls over accounting entries identified by this audit
    because their review was not sufficiently detailed to identify those weaknesses.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports.




                                        17
Appendix B. Comparison of FYs 1999 and 2000
            Accounting Entries

Reporting Categories
    Accounting entries made by DFAS Denver were categorized as supported,
    unsupported, improper, or not reviewed. In the FY 1999 audit, improper
    entries were included in the unsupported entries.

           Supported Entries. Except for entries considered unsupported or
    improper, supported accounting entries are original data entries made in the
    accounting records for:

                • data submitted by authorized organizations, other data
                  originating within DFAS systems, and data calls made by DFAS
                  sites to obtain data not otherwise available;

                • inventory revaluation and other entries required by the DoD
                  Regulation 7000.14-R or other published requirements; and

                • year-end closing entries, reversals of required entries and closing
                  entries, and corrections of errors.

           Unsupported Entries. Accounting entries are unsupported when the
    documentary support or audit trails are inadequate at the time such entries were
    submitted for approval (or absent required approval, when the entries were
    made). Thus, to emphasize the underlying documentation control weaknesses,
    accounting entries are still identified in this report as unsupported in those
    instances where DFAS Denver subsequently provided additional documentary
    support and explanations of audit trails. Unsupported entries represent:

                • elimination entries and other entries made to force agreement
                  between accounting records because of accounting system
                  deficiencies or other problems,

                • entries made where no documentary support was available or
                  where the documentation provided did not support the dollar
                  amount or inadequately described the purpose and reason for
                  making the entry, and

                • entries made where the audit trails to supporting documentation
                  were inadequate.




                                       18
            Improper Entries. Improper accounting entries represent those that are
    either illogical or contrary to generally accepted accounting principles.

           Not Reviewed. Those accounting entries were identified by the audit but
    not reviewed because of time limitations for conducting the audit.

Comparison to Prior Year
    In compiling the FY 1999 Air Force General Funds Financial Statements,
    DFAS Denver made accounting entries for $1.2 trillion of which 87 entries for
    $66.3 billion were unsupported and 2 entries for $0.3 billion were improper.
    Details on this prior audit, which was limited to examining CRS accounting
    entries, are provided in Inspector General, DoD, Report No. D-2000-143.

    Though material control weaknesses remain, as discussed in the Finding section
    of the report, DFAS Denver did make significant progress in FY 2000 in
    reducing the number of accounting entries made in CRS and DDRS, which is
    comparable to the FY 1999 audit scope. The number of accounting entries
    made by DFAS Denver increased by 1,165 entries while the dollar value
    decreased by $816.8 billion. There are several reasons those changes occurred
    from FYs 1999 to 2000.

    SOF Constant Adjustments. The table included in this appendix compares the
    quantity and value of different categories of accounting entries audited in
    FYs 1999 and 2000. A separate comparison of CRS and DDRS accounting
    entries is presented in the table because the SOF constant adjustments made in
    FY 2000 were not included in the scope of the FY 1999 audit. Thus, the
    increase in the number of accounting entries made in FY 2000 is primarily the
    result of including the 921 SOF constant adjustments made in FY 2000 for
    $296.4 billion. For comparison purposes, including the DDRS accounting
    entries with CRS entries in FY 2000 is appropriate because the DDRS entries
    were previously made in CRS.

    CRS and DDRS Entries. During FY 2000, DFAS Denver made 244 more
    accounting entries in the CRS and DDRS than were made in the CRS in
    FY 1999. However, the value of the entries made in FY 2000 were
    $111.4 billion less than the value of the FY 1999 CRS entries. As shown in the
    following table, the increase of 244 entries in the number of accounting entries
    made in FY 2000 is primarily a result of decreases in the number of entries
    made to reverse prior year accounting entries, make prior period adjustments,
    and correct the status of funds. The dollar value of FY 2000 accounting entries
    decreased by more than 90 percent compared to FY 1999 for the following
    reasons.

           • In FY 1999, 86 accounting entries for $737.9 billion were made to
              post and reverse budgetary data and correct errors in posting logic.
              No similar entries were made in FY 2000.




                                       19
       • In FY 1999, $202.0 billion in reclassifications were made compared to
          only $20.1 billion in FY 2000. .

       • The decrease in entries made to reverse prior year accounting entries is
          primarily a result of a single FY 1999 accounting entry for
          $167.0 billion that reversed a FY 1998 accounting entry made to
          reclassify accounts payable from Government to public.



     FYs 1999 and 2000 Accounting Entries by Automated System and Category


   Automated System                            Number of
Category of Accounting Entry                Accounting Entries   Amount (in billions)

                                        FY 1999       FY 2000    FY 1999    FY 2000
CRS and DDRS:
 Posting of budgetary data                      27           0   $ 313.7      $     0.0
 Reversal of budgetary data                     27           0     313.7            0.0
 Correcting errors in posting logic             32           0     110.5            0.0
   Subtotal                                     86           0   $ 737.9      $     0.0
 Reclassification                              104        125       202.0          20.1

 Reversal of prior year accounting
  entries                                       33        111       172.7          27.1
 Posting off-line data                          50          95       40.6          12.5

 Reversal of current year accounting
   entries                                      23         19        29.5           0.3
 Prior period adjustments                       13        108        25.0          18.9

 Reallocation                                   73          67        3.7           4.4
 Correct status of funds                         6          70        0.1           0.7
 Depreciation                                   11          11        0.9           5.6
 Other                                          53          90       10.4          21.8
   Subtotal                                    452        696    $1,222.8     $111.4
SOF System:
 Constant “C” adjustments                         0       921           0         294.6
   Total                                       452       1,617   $1,222.8     $406.0




                                       20
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Denver


Non-Defense Federal Organization
Office of Management and Budget




                                           21
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         22
Defense Finance and Accounting Service
Comments




                   23
24
25
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for Auditing,
DoD, prepared this report. Personnel of the Office of the Inspector General, DoD, who
contributed to the report, are listed below.

Paul J. Granetto
Richard B. Bird
Brian M. Flynn
W. Andy Cooley
Samuel R. Mensch
Thomas G. Hare
Mary K. Reynolds
Jason T. Hamilton
Jeffrey A. Kahn
Stephen G. Wynne
